HHS/OIG, Audit -"Review of Medicare Outpatient Cardiac Rehabilitation Provided by Hospitals,"(A-05-03-00102)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Outpatient Cardiac Rehabilitation
Provided by Hospitals," (A-05-03-00102)
August 18, 2005
Complete
Text of Report is available in PDF format (383 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report consolidates the results of our audits of Medicare outpatient cardiac rehabilitation provided
by 34 hospitals.  Our objective was to determine whether hospitals had complied with national
Medicare outpatient cardiac rehabilitation coverage requirements for direct physician supervision and “incident
to” services.  Twenty-nine of the 34 hospitals in our sample relied on emergency physicians
or “code” teams in other parts of the hospital to provide physician supervision when the
medical directors were not available, while the remaining 5 hospitals designated a particular physician
to provide direct physician supervision.  Thirty-two of the 34 hospitals considered the patient’s
referring physician as the physician whose professional services the cardiac rehabilitation was provided “incident
to,” while the other 2 hospitals relied on the professional services of a hospital physician.  We
attributed this to inconsistent guidance in the Medicare Coverage Issues Manual, Hospital Manual, and
Intermediary Manual.
We recommended that CMS: (1) clarify national Medicare cardiac rehabilitation coverage requirements
on the provision of direct physician supervision and the physician (referring or hospital) whose professional
services the cardiac rehabilitation must be “incident to” and (2) direct fiscal intermediaries
to educate hospitals on the clarified national Medicare coverage policy for outpatient cardiac rehabilitation
services.  In its comments on our draft report, CMS agreed to develop and publish provider education
materials to clarify the direct physician supervision and “incident to” provisions of the
cardiac rehabilitation benefit.